U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT


  JUDGMENT FUNDS AWARDED TO THE
   SEMINOLE NATION OF OKLAHOMA

            REPORT NO. 97-I-136
             NOVEMBER 1996
                                                                                          ■




             United States Department of the Interior
                        OFFICE OF INSPECTOR GENERAL
                                Washington, D.C. 20240




MEMORANDUM

TO:

FROM:


SUBJECT SUMMARY: Final Survey Report for Your Information - “Judgment
                   Funds Awarded to the Seminole Nation of Oklahoma”
                   (No. 97-I-136)

Attached for your information is a copy of the subject final report. This report is the
first in a series of audit reports that we plan to issue on judgment funds awarded to
individual Indian tribes. The objective of the audit was to determine whether the:
(1) Bureau of Indian Affairs distributed judgment award funds in accordance with
the plans or legislation authorizing the use of these funds and (2) tribes used
judgment award funds as specified in the plans or legislation.

We concluded that the Bureau distributed judgment award funds related to
consolidated Dockets 73 and 151 to the Seminole Nation of Oklahoma in accordance
with Public Law 101-277 for fiscal years 1994 and 1995. We also concluded that the
Seminole Nation had fully complied with the plan for the use and distribution of the
judgment award funds. Specifically, the Seminole Nation: (1) established a separate
Judgment Fund Office to administer the program; (2) passed tribal ordinances that
established seven individual programs and eligibility criteria for the use of the
judgment funds; (3) prepared annual budgets for the individual programs and
distributed funds in accordance with those budgets; and (4) deposited funds into a
separate interest-bearing account for each program. The individual programs
established were school clothing assistance, burial assistance, elderly assistance,
 household economic assistance, higher education, cultural and recreational
 enhancement, and economic and business development. All of these programs met
 the intent of Public Law 101-277 and the plan for the use and distribution of the
judgment award funds. The report contained no recommendations.

If you have any questions concerning this matter, please contact me at (202)
208-5745 or Mr. Robert J. Williams, Acting Assistant Inspector General for Audits,
at (202) 208-4252.



Attachment
                                                              C-IN-BIA-008-96(A)


            United States Department of the Interior
                       OFFICE OF INSPECTOR GENERAL
                              Washington, D.C. 20240




                             SURVEY REPORT

Memorandum

To:         Special Trustee for American Indians




Subject:    Survey Report on Judgment Funds Awarded to the Seminole Nation of
            Oklahoma (No. 97-I-136)

                             INTRODUCTION
This report presents the results of our survey of judgment funds awarded to the
Seminole Nation of Oklahoma. This report is the first in a series of audit reports
that we plan to issue on judgment funds awarded to individual Indian tribes. The
objective of the audit was to determine whether the: (1) Bureau of Indian Affairs
distributed judgment award funds in accordance with the plans or legislation
authorizing the use of judgment award funds and (2) tribes used judgment award
funds as specified in the plans or legislation.

BACKGROUND

On April 27, 1976, the Indian Claims Commission approved a compromise
settlement and entered a final award in consolidated Dockets 73 and 151 in the
amount of $16 million on behalf of the Seminole Nation as it existed in Florida on
September 18, 1823. The award was compensation for aboriginal lands taken by the
United States under provisions of the Treaty of Camp Moultrie. Funds to cover the
award were appropriated on June 1, 1976. From June 1976 to January 1990, the
funds were invested. On January 23, 1990, the Congress enacted Public Law 101-
277, which stipulated that the judgment award, including all interest and investment
income accrued thereon less attorney’s fees and litigation expenses, be allocated as
follows: 75.404 percent to the Seminole Nation of Oklahoma and 24.596 percent
among the Seminole Tribe of Florida, the Miccosukee Tribe of Indians of Florida,
and the independent Seminole Indians of Florida. The allocation to the Seminole
Nation of Oklahoma was $11,114,097.
Public Law 101-277 further stipulated that the Seminole Nation of Oklahoma
develop a plan for the use and distribution of the funds awarded, with the provision
that at least 80 percent of the amount awarded be programmed to serve common
tribal needs, educational requirements, and such other purposes as the tribe may
determine.

The Seminole Nation prepared a plan for the use and distribution of the judgment
award funds. The plan became effective on May 15, 1991, after approval by the
Secretary of the Interior. The plan required the Secretary to invest the funds for use
by the tribe on a budgetary basis for programs and services to be determined by the
tribal governing body. The tribal governing body determined that the funds would
be used in the following program areas: health, education, social services, elderly
care, housing, general community improvement, economic and business development,
expansion and preservation of the tribal land base, and tribal government support
and development.

For fiscal years 1994 and 1995, the Bureau distributed judgment funds of
approximately $4.6 million to the Seminole Nation, which spent about $4.1 million
for the projects during this period.

SCOPE OF SURVEY

Our survey was made in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included
such tests of records and other auditing procedures that were considered necessary
under the circumstances. We concentrated our review on judgment fund activity that
occurred during fiscal years 1994 and 1995. We did not review the Bureau’s
accounting for or its investment of the judgment award funds. Our survey was
performed during September 1996 at the offices of the Seminole Nation in Wewoka,
Oklahoma.

We also reviewed the Secretary’s Annual Statement and Report to the President and
the Congress, required by the Federal Managers’ Financial Integrity Act, for fiscal
year 1995 and determined that there were no reported weaknesses related to the
objective and scope of our survey.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has
issued a report in the past 5 years concerning judgment funds awarded to the
Seminole Nation.
                           RESULTS OF SURVEY
We concluded that the Bureau of Indian Affairs distributed judgment award funds
related to consolidated Dockets 73 and 151 to the Seminole Nation of Oklahoma in
accordance with Public Law 101-277 for fiscal years 1994 and 1995. We also
concluded that the Seminole Nation had fully complied with the plan for the use and
distribution of the judgment award funds. Specifically, the Seminole Nation: (1)
established a separate Judgment Fund Office to administer the program; (2) passed
tribal ordinances that established seven individual programs and eligibility criteria for
the use of the judgment funds; (3) prepared annual budgets for the individual
programs and distributed funds in accordance with those budgets; and (4) deposited
funds into a separate interest-bearing account for each program. The individual
programs established were school clothing assistance, burial assistance, elderly
assistance, household economic assistance, higher education, cultural and recreational
enhancement, and economic and business development. All of these programs met
the intent of Public Law 101-277 and the plan for the use and distribution of the
judgment award funds. Each of the programs required individual applications and
supporting documents for funding assistance, which were reviewed by the Judgment
Fund Office for eligibility. We performed a limited test of program expenditures
totaling about $498,000 and related documentation and determined that these
expenditures were made in accordance with requirements of the tribal ordinances.
In addition, annual audits of the financial statements of judgment award funds for
fiscal years 1994 and 1995 were performed by a certified public accounting firm,
which rendered unqualified opinions on these financial statements for these periods.

Since this report does not contain any recommendations, a response to the Office of
Inspector General is not required.

The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, actions taken to
implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We commend the Seminole Nation’s management of these funds, and we appreciate
the cooperation of Bureau staff at the Muskogee Area Office and the Wewoka
Agency Office, as well as tribal personnel, in the conduct of our audit.


cc:    Assistant Secretary for Indian Affairs




                                            3
              ILLEGAL OR WASTEFUL ACTIVITIES
                  SHOULD BE REPORTED TO
            THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                               Calling:


                  Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       1-800-354-0996


                  Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division- Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
HOTLINE
